RECORD NUMBER:
________________________________________________
United States Supreme Court
DWAYNE LAMAR WILLIAMS, SR.,

Petitioner,

- V. COMMONWEALTH OF VIRGINIA,

Respondent

PETITION FOR CERTIORARI FROM JUDGMENT
OF THE VIRGINIA SUPREME COURT
PETITION FOR CERTIORARI
DALE R. JENSEN
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VIRGINIA 24401
(434) 249-3874
djensen@jensenjustice.com

Counsel for Petitioner

PETITION FOR CERTIORARI

Questions Presented for Review
A.
Does the right to a grand jury indictment
conferred by the Fifth Amendment to the
United States Constitution apply to state
indictments via the Fourteenth
Amendment?
B.
Does a defective grand jury indictment in a
state court criminal case deprive the state
court of jurisdiction in such a case?

i

PETITION FOR CERTIORARI

List of All Parties to the Proceeding
All parties are as listed in the caption hereof.
Dwayne Lamar Williams, Sr. is an individual for
which no corporate disclosure statement is required
by Rule 29.6.

ii

PETITION FOR CERTIORARI

TABLE OF CONTENTS

Page

Questions Presented for Review
i
List of All Parties to the Proceeding
ii
I. Citations of the Official and Unofficial
Reports of the Opinions and Orders
Entered in this Case by Courts
1
II. Statement of the Basis of Appellate
Jurisdiction
1
III. Constitutional Provisions and Statutes
Involved in the Case
2
IV. Statement of the Case
3
A. Procedural Posture
3
B. Statement of Facts
5
V. Argument
5
VI. Overall Conclusion
34

App. A
App. B
App. C
App. D
App. E
App. F
App. G
App. H
App. I
App. J

Dismissal Order
App. A
Order Transferring Appeal App. B
Order Denying Appeal
App. C
Order Denying Rehearing App. D
Motion to Vacate
App. E
Memorandum in Support
of Motion to Vacate
App. F
Notice of Appeal
App. G
Petition for Appeal
App. H
Request for Rehearing
App. I
Handbook for Virginia
Grand Jurors
App. J

iii

PETITION FOR CERTIORARI

1-2
1-1
1-1
1-1
1-4
1-43
1-3
1-54
1-22
1-64

TABLE OF CASES
Page

Cases

Adamson v. California

332 U.S. 46, 67 S. Ct. 1672 (1947)

12

49 Va. (Gratt.) 661, 671 (1851)

29

Adcock v. Commonwealth
Barron v. Baltimore

7 Pet. 243 (1833)
Benton v. Maryland
3395 U.S. 784, 89 S. Ct. 2056 (1969)

Branzburg v. Hayes

408 U.S. 665 (1972)

12
13
11

Commonwealth v. Cawood
4 Va. 527 (1826)

25, 26, 28, 34

Costello v. United States
350 U.S. 359 (1956)

11

Duncan v. Louisiana

391 U.S. 145, 88 S. Ct. 1444 (1968)

Ex parte Wilson

12, 13

114 U.S. 417, 5 S. Ct. 935 (1885)

10

167 Va. 475, 189 S.E. 321 (1937)

8

85 U.S. (18 Wall.) 350, 366 (1873)

24

372 U.S. 335, 83 S. Ct. 792 (1963)

12

Farewell v. Commonwealth
Galpin v. Page

Gideon v. Wainright
Griffin v. California

380 U.S. 609, 615 (1965)

9

163 Va. 1042, 177 S.E. 227 (1934)

8

Guynn v. Commonwealth
Hanson v. Smyth

183 Va. 384 (1944)

8, 9, 25

Hurtado v. California

iv

PETITION FOR CERTIORARI

110 U.S. 516 (1884)

6, 7, 15-16

Malloy v. Hogan

378 U.S. 1, 84 S. Ct. 1489 (1964)
McDonald v. City of Chi.
561 U.S. 742, 130 S. Ct. 3020 (2010)

Pine v. Commonwealth

121 Va. 812, 93 S.E. 652 (1917)
Pointer v. Texas
380 U.S. 400, 85 S. Ct. 1065 (1965)

Renigar v. United States

12
11-17
8
12-13

172 F. 646 (4th Cir. 1909)

30-32

89 Va. 156, 157 (1892)

27-29

222 Va. 787, 793 (1981)

24-25

414 U.S. 338, 94 S. Ct. 613 (1974)

10-11

18 F.3d 814, 817 (9th Cir. 1994)

32, 33

104 F. Supp. 283 (N.D. Cal. 1952)

19-22

388 U.S. 14, 87 S. Ct. 1920 (1967)

13

Simmons v. Commonwealth

Slaughter v. Commonwealth
United States v. Calandra
United States v. Lennick
United States v. Smyth
Washington v. Texas

Constitution
Fifth Amendment
Fourteenth Amendment
28 U.S.C. § 1257
Va. Code §17.1-123
Va. Code §17.1-124
Va. Code §17.1-240
Va. Code §18.2-25
Va. Code §18.2-31
Va. Code §19.2-202
Va. Code §19.2-242

Statutes

v

PETITION FOR CERTIORARI

passim
passim
2
2, 27
2, 27
2, 27
2
2
25
29

Court Rules
Virginia Supreme Court Rule 3A:5

27

Secondary Sources
1 Bishop on Crim. Procedure
31
1 Chitty on Crim. Law
30
4 Blackstone
31
Bonner, Lawyers and Litigants in Ancient Athens
36 (1927)
17
Constitution of Clarendon
18
Handbook for Virginia Grand Jurors
18, 19, 22, 23
Magna Carta
18
Patterson, The Administration of Justice in Great
Britain 200 (1936)
17
Whyte, Is the Grand Jury Necessary?, 45 Wm. and
Mary L. Rev. 462-71 (1959)
17-18

vi

PETITION FOR CERTIORARI

I.

Citations of the Official and Unofficial Reports

of the Opinions and Orders Entered in this Case by
Courts

On April 30, 2018, the Circuit Court for the
County of Rockbridge entered its Order denying a
Motion to Vacate (the “Motion”) filed by Dwayne
Lamar Williams, Sr. (“Williams”). The Order was
not entered into an official report. Williams timely
appealed the denial of the Motion to the Virginia
Court of Appeals, which subsequently transferred
the case to the Virginia Supreme Court.
The Virginia Supreme Court entered its Order
finally dismissing the Petition for Appeal on March
22, 2019. The Order was not entered into an official
report.

II.

Statement of the Basis of Appellate

Jurisdiction

The Virginia Supreme Court entered its
Judgment on March 22, 2019.
This Court has appellate jurisdiction in this
appeal pursuant to 28 U.S.C. § 1257.

III.

Constitutional Provisions and Statutes

Involved in the Case

The Fifth Amendment and the Fourteenth
Amendments to the United States Constitution are
involved in this case.
Williams’ indictments were defective pursuant
to Va. Code §§ 17.1-123(A) and 17.1-124 and 17.1240, which are involved in this case, which implicate
the Fifth Amendment and the Fourteenth
Amendments to the United States Constitution.
Williams was convicted pursuant to Va. Code §
18.2-31(2), Va. Code § 18.2-25, which are involved in
this case.

Petition for Certiorari

Page 2

IV.

Statement of the Case
A. Procedural Posture

Unconfirmed records allege that a grand jury
indicted Williams in the Rockbridge County Circuit
Court (the “Circuit Court”) on two counts of
possession with intent to distribute a controlled
substance, one count of possession with intent to
distribute marijuana, and one count of selling drugs
on or near certain properties. No court order signed
by any Circuit Court judge was ever entered
confirming that a grand jury had been convened or
acted. Accordingly, Williams was never indicted by a
grand jury such that the Circuit Court had
jurisdiction over Williams.
Williams appeared in the Circuit Court and
entered guilty pleas to the charges. On April 28,
2014, Williams was sentenced to a total of thirty

Petition for Certiorari

Page 3

years for these convictions with twenty-two years
suspended.
Williams did not appeal his convictions.
The Virginia Supreme Court denied Williams’
Petition for Writ of Habeas Corpus on October 17,
2016 on procedural grounds.
The U.S. District Court for the Western
District of Virginia denied Williams’ Petition for Writ
of Habeas Corpus on January 5, 2017, also on
procedural grounds.
On or about April 18, 2018, Williams moved to
vacate the judgments against him because he was
never indicted, which deprived the Circuit Court of
jurisdiction. App. A, B.
On or about April 30, 2018, the Circuit Court
denied Williams’ motion to vacate. App. C.
The Virginia Supreme Court denied Williams’
appeal of the Circuit Court decision on March 22,

Petition for Certiorari

Page 4

2019. App. I.
This Petition for Writ of Certiorari is filed
seeking reversal of the decisions of the Circuit Court
and the Virginia Supreme Court.

B. Statement of Facts

Unconfirmed records in the files of the Circuit
Court allege that a grand jury indicted Williams on
two counts of possession with intent to distribute a
controlled substance, one count of possession with
intent to distribute marijuana, and one count of
selling drugs on or near certain properties. No court
order signed by the Circuit Court judge was ever
entered regarding the grand jury that indicates that
any such proceeding ever took place or that Williams
was ever indicted.

V.

Argument

Petition for Certiorari

Page 5

A. Discussion of Questions Presented
1.

Does the right to a grand jury indictment
conferred by the Fifth Amendment to the
United States Constitution apply to state
indictments via the Fourteenth Amendment?

The Fifth Amendment to the United States
Constitution provides in pertinent part:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time of
War or public danger;
The right to a grand jury indictment conferred
by the Fifth Amendment to the United States
Constitution should apply to state indictments via
the Fourteenth Amendment. Given changes in
constitutional law that have occurred since Hurtado

v. California, 110 U.S. 516, 519 (1884) was decided
over 130 years ago, it is time to either clarify or
Petition for Certiorari

Page 6

overrule that opinion.
It should not be the case that state courts,
such as those of Virginia in this case, are allowed to
ignore the grand jury rights of defendants conferred
by the Fifth Amendment and then claim that
defendants effectively have no recourse. It is
certainly possible to hold that states can have
indictment methods that have equivalent protections
to the federal grand jury system, the grand jury
system of Virginia, and the grand jury systems of
other states. What should not be allowed is for a
fundamental constitutional right, such as the Fifth
Amendment right to a grand jury indictment be
violated with impunity, and state courts then to be
able to claim that right to be “merely procedural” and
subject to waiver.
The Circuit Court and the Virginia Supreme
Court each implicitly denied Williams’ motion to

Petition for Certiorari

Page 7

vacate based upon a case decided over 70 years ago
by the Virginia Supreme Court. In that case, the
Virginia Supreme Court made an erroneous
determination that any defective grand jury
indictment was a waivable procedural matter and
was not jurisdictional. Hanson v. Smyth, 183 Va.
384, 390-91 (1944).
In Hanson, the Virginia Supreme Court opined
(emphasis added):
While the Fifth Amendment to the
Federal Constitution requires a
presentment or indictment in
prosecutions under Federal statutes “for
a capital, or otherwise infamous crime,”
the Virginia Constitution contains no
such requirement. Farewell v.
Commonwealth, 167 Va. 475, 484, 189
S.E. 321, 325; Pine v. Commonwealth,
121 Va. 812, 835, 93 S.E. 652; Guynn v.
Commonwealth, 163 Va. 1042, 1046,
177 S.E. 227. In this State the
requirement is merely statutory …
Since the statutory requirement for an
indictment in the present case is not
jurisdictional, the failure of the record
to show affirmatively that the
indictment was returned into court by

Petition for Certiorari

Page 8

the grand jury is not such a defect as
will render null and void the judgment
of conviction based thereon.

Hanson, 183 Va. at 390-91.
The Hanson opinion relied upon a false
premise that the Fifth Amendment to the Federal
Constitution did not apply to Virginia under the
equal protection clause of the Fourteenth
Amendment. However, since Hanson was decided,
this Honorable Court has significantly expanded the
application of the Bill of Rights of the Constitution to
state law matters under the equal protection portion
of the Fourteenth Amendment. For example; in

Griffin v. California, 380 U.S. 609, 615 (1965); this
Honorable Court specifically held that the selfincrimination provision of the Fifth Amendment
applied to the States by reason of the Fourteenth
Amendment.
The right to indictment by grand jury was and

Petition for Certiorari

Page 9

is a longstanding right established by the law of
England. See, e.g., Ex parte Wilson, 114 U.S. 417,
423-24, 5 S. Ct. 935, 938 (1885). Without the
intervention of a grand jury, trials were not allowed
for capital crimes, nor for any felony. Id. The right
to a grand jury indictment was so fundamental to the
criminal justice rights of defendants that rights
therefor were placed in the Fifth Amendment of the
Bill of Rights. Id.; Fifth Amendment of the U.S.
Constitution.
As this Court has held (emphasis added):
In England, the grand jury served for
centuries both as a body of accusers
sworn to discover and present for trial
persons suspected of criminal
wrongdoing and as a protector of
citizens against arbitrary and
oppressive governmental action. In this
country the Founders thought the grand
jury so essential to basic liberties that
they provided in the Fifth Amendment
that federal prosecution for serious
crimes can only be instituted by “a
presentment or indictment of a Grand
Jury.” Cf. Costello v. United States, 350
Petition for Certiorari

Page 10

U.S. 359, 361-362 (1956). The grand
jury’s historic functions survive to this
day. Its responsibilities continue to
include both the determination whether
there is probable cause to believe a
crime has been committed and the
protection of citizens against unfounded
criminal prosecutions. Branzburg v.
Hayes, 408 U.S. 665, 686-687 (1972).

United States v. Calandra, 414 U.S. 338, 342-43, 94
S. Ct. 613, 617 (1974).
In 2010, this Honorable Court explained in
some detail the history of application of the Bill of
Rights to the States via the Fourteenth Amendment.

McDonald v. City of Chi., 561 U.S. 742, 761-65, 130
S. Ct. 3020, 3032-35 (2010). In McDonald, this Court
set forth in pertinent part (emphasis added):
An alternative theory regarding the
relationship between the Bill of Rights
and § 1 of the Fourteenth Amendment
was championed by Justice Black. This
theory held that § 1 of the Fourteenth
Amendment totally incorporated all of
the provisions of the Bill of Rights. See,
e.g., Adamson, supra, at 71-72, 67 S. Ct.
1672, 91 L. Ed. 1903 (Black, J.,
dissenting); Duncan, supra, at 166, 88
Petition for Certiorari

Page 11

S. Ct. 1444, 20 L. Ed. 2d 491 (Black, J.,
concurring). As Justice Black noted, the
chief congressional proponents of the
Fourteenth Amendment espoused the
view that the Amendment made the Bill
of Rights applicable to the States and,
in so doing, overruled this Court’s
decision in Barron. Adamson, supra, at
72, 67 S. Ct. 1672, 91 L. Ed. 1903
(dissenting opinion). Nonetheless, the
Court never has embraced Justice
Black’s “total incorporation” theory.
While Justice Black’s theory was never
adopted, the Court eventually moved in
that direction by initiating what has
been called a process of “selective
incorporation,” i.e., the Court began to
hold that the Due Process Clause fully
incorporates particular rights contained
in the first eight Amendments. See, e.g.,
Gideon v. Wainright, 372 U.S. 335, 341,
83 S. Ct. 792, 9 L. Ed. 2d 799 (1963);
Malloy v. Hogan, 378 U.S. 1, 5-6, 84 S.
Ct. 1489, 12 L. Ed. 2d 653 (1964);
Pointer v. Texas, 380 U.S. 400, 403-404,
85 S. Ct. 1065, 13 L. Ed. 2d 923 (1965);
Washington v. Texas, 388 U.S. 14, 18,
87 S. Ct. 1920, 18 L. Ed. 2d 1019 (1967);
Duncan, 391 U.S., at 147-148, 88 S. Ct.
1444, 20 L. Ed. 2d 491; Benton v.
Maryland, 395 U.S. 784, 794, 89 S. Ct.
2056, 23 L. Ed. 2d 707 (1969).
The decisions during this time
abandoned three of the previously noted
characteristics of the earlier period. The
Court made it clear that the governing
Petition for Certiorari

Page 12

Id.

standard is not whether any “civilized
system [can] be imagined that would
not accord the particular protection.”
Duncan, 391 U.S., at 149, n. 14, 88 S.
Ct. 1444, 20 L. Ed. 2d 491. Instead, the
Court inquired whether a particular Bill
of Rights guarantee is fundamental to
our scheme of ordered liberty and
system of justice. Id., at 149, and n. 14,
88 S. Ct. 1444, 20 L. Ed. 2d 491; see also
id., at 148, 88 S. Ct. 1444, 20 L. Ed. 2d
491 (referring to those “fundamental
principles of liberty and justice which
lie at the base of all our civil and
political institutions” (emphasis added;
internal quotation marks omitted)).
The Court also shed any reluctance to
hold that rights guaranteed by the Bill
of Rights met the requirements for
protection under the Due Process
Clause. The Court eventually
incorporated almost all of the provisions
of the Bill of Rights. Only a handful of
the Bill of Rights protections remain
unincorporated.
Williams avers that Justice Black’s theory is

substantively correct and the Bill of Rights is not an

ala carte menu for courts to pick and choose from.
No court, including this Honorable Court, should
purport to have authority to pick and choose which
Petition for Certiorari

Page 13

rights of the Bill of Rights to enforce and which not
to enforce. Such authority is solely within the
province of the people through their states to amend
the Constitution if they believe that such is
warranted. Williams respectfully avers that Bill of
Rights applies to the states through the Fourteenth
Amendment in its entirety. Accordingly, any
remaining provisions of the Bill of Rights not
explicitly applied to states via the Fourteenth
Amendment heretofore by this Court should be
incorporated as jurisprudence moves forward in
accordance with Justice Black’s views.
Williams acknowledges that McDonald
referenced the Hurtado case from over 130 years ago
concerning grand jury indictments standing for the
premise that jurisprudence to date had not
incorporated the Fifth Amendment’s grand jury
indictment requirement. Id., 561 U.S. at 765 n.13.

Petition for Certiorari

Page 14

However, although the case of Hurtado, 110 U.S. at
519 stopped short of applying the grand jury
provision of the Fifth Amendment to the States via
the Fourteenth Amendment, it affirmatively held
that the due process requirements had to be met as
to indictments. Id., 110 U.S. at 538. The Hurtado
Court specifically held that:
we are unable to say that the
substitution for a presentment or
indictment by a grand jury of the
proceeding by information, after
examination and commitment by a
magistrate, certifying to the probable
guilt of the defendant, with the right on
his part to the aid of counsel, and to the
cross-examination of the witnesses
produced for the prosecution, is not due
process of law.

Id. The Hurtado Court did not hold that California
could ignore any and all indictment procedures
established under California law as Virginia courts
did pursuant to Virginia law in Williams’ case. The
due process requirement needed to be met under

Petition for Certiorari

Page 15

Hurtado and to the extent that this Court does not
wish to revisit Hurtado, this Court should still hold
that the right to a grand jury indictment or its
equivalent is jurisdictional rather than procedural.
Virginia still must meet the due process
requirement. That requirement has simply not been
met in Williams’ case.
If this Honorable Court wishes to continue to
follow “selective incorporation”, Williams avers that
the Bill of Rights guarantee of a grand jury
indictment is fundamental to our scheme of ordered
liberty and system of justice under the selective
incorporation doctrine. McDonald, 561 U.S. at 76165.
In order to understand why the right to a
grand indictment is fundamental, it is instructive to
review the history of grand juries and their
equivalents further. The history of grand juries goes

Petition for Certiorari

Page 16

back to early Grecian use of “Dicasteries”, which
were tribunals picked from lists of citizens whose
duty it was to accuse, try, and convict those alleged
to have committed crimes. Bonner, Lawyers and
Litigants in Ancient Athens 36 (1927). Roman law
utilized “Judices”, which functioned similarly.
Patterson, The Administration of Justice in Great
Britain 200 (1936). Grand juries were subsequently
adopted as a part of the English system of law, which
then formed a basis for the legal system of most of
the United States. See, e.g., Whyte, Is the Grand
Jury Necessary?, 45 Wm. and Mary L. Rev. 462-71
(1959). The grand jury system was then brought to
Virginia early in the seventeenth century and has
been a part of Virginia’s legal system since that time.

Id. As summarized in the Handbook for Virginia
Grand Jurors (the “Handbook”) that is currently
used by Virginia Courts (emphasis added):

Petition for Certiorari

Page 17

The Grand Jury had its origin more
than seven centuries ago in England
from which, in large part, this country
inherited its legal system. Many legal
historians trace its origin to events in
the reign of Henry II and to one of the
articles of the Constitution of Clarendon
in 1164. It was recognized in Magna
Carta granted by King John at the
demand of the people in 1215. One of
its earliest functions was to protect
citizens from despotic abuse of power by
the king; its other function was to report
those suspected of having committed
criminal offenses.
These two functions are carried forward
today in the work of the Grand Jury,
and its importance in controlling the
start of prosecutions for serious crimes
is recognized in both the Constitution of
the United States and the Constitution
of Virginia.
Exhibit H at § 5. Thus, the Virginia Supreme Court,
which is responsible for the Handbook recognize the
fundamental importance of grand juries in
controlling the start of prosecutions. The Virginia
Supreme Court affirmed this fundamental
importance using the Constitution of the United

Petition for Certiorari

Page 18

States and the Constitution of Virginia as primary
authorities.
Federal and state judges have repeatedly
acknowledged the fundamental importance of grand
juries and the right thereto. For example, in an
opinion from the District Court of the Northern
District of California provided a discourse on the
importance of the grand jury right (internal footnote
references omitted, emphasis added):
The institution of the grand jury is a
development which comes to us out of
the mists of early English history. It
has undergone changes, but has been
remarkable stable because the
institution has been molded into an
instrument of democratic government,
extraordinarily efficient for reflecting
not the desires or whims of any official
or of any class or party, but the deep
feeling of the people. As such, with its
essential elements of plenary power to
investigate and secrecy of its
deliberations, it was preserved by the
Constitution of the United States not
only to protect the defendant but to
permit public spirited citizens, chosen
by democratic procedures, to attach
Petition for Certiorari

Page 19

corrupt conditions. A criticism of the
action of the grand jury is a criticism of
democracy itself.
The inception of the ‘grand inquest’ is
shrouded in the early reaches of English
history. It was a device whereby
originally, when first authoritatively
noticed c. 1166, the Norman kings of
England required answers from
representatives of local units of
government concerning royal property
and franchise and also enforced
communal responsibility for the acts of
criminals. By gradations, the grand
juries gave voice to the fama publica of
the locale as to crimes, and were later
recognized in the character of witnesses.
Through hundreds of years, these
characteristics remain inherent. In an
early stage of evolution, the body made
presentment or presented indictments
at the behest of private individuals or
the Prosecutor for the King. Vestiges of
all these factors still subsist.
The institution was thus evolved as an
instrument for efficient prosecution of
crime, and as such it has remained until
this day. The principle of secrecy was
developed to protect the King’s Counsel
and to permit the Prosecutors to have
influence with the grand jury, and in
modern times it is still useful for the
same purpose. By degrees the secrecy of
proceedings permitted two outstanding
extensions in that grand jurors at times
refused to indict notwithstanding
Petition for Certiorari

Page 20

pressure from the Crown and the
Judges. This prerogative stood the
people will in hand during the tyranny
of the Stuarts, and, as it was eulogized
by Coke and Blackstone, the institution
was encysted with all its characteristics
in the Fifth Amendment. But the grand
jurors, by use of secrecy of their
proceedings, stubbornly retained the
power of instituting an investigation of
their own knowledge or taking a rumor
or suspicion and expanding it through
witnesses. As we shall see, this
comprehensive power also remains at
this hour. The Constitution of the
United States preserved the grand jury
with all its powers and inherent
character … the grand jury is an
essential element in the structure of the
federal government now. No other
instrument can cope with organized
crime which cuts across state lines,
conspiracies to overthrow the
government of the United States, or
alleged deviations from rectitude by
those who have been entrusted by the
government with public trust …
The grand jury breathes the spirit of a
community into the enforcement of law.
Its effect as an institution for
investigation of all, no matter how
highly placed, creates the elan of
democracy. Here the people speak
through their chosen representatives.

United States v. Smyth, 104 F. Supp. 283, 288-91
Petition for Certiorari

Page 21

(N.D. Cal. 1952). The opinion in Smyth provides
solid reasoning showing why the Bill of Rights
guarantee of a grand jury indictment is fundamental
to our scheme of ordered liberty and system of
justice.
Likewise, in Virginia in particular, the
Handbook emphasizes the fundamental importance
of grand juries and the right thereto by quoting
Harlan Fiske Stone, late Chief Justice of this
Honorable Court (emphasis added):
In time of peace a citizen can perform
no higher public duty than that of
Grand Jury service. No body of citizens
exercises public functions more vital to
the administration of law and order.
The Grand Jury is both a sword and a
shield of justice-a sword, because it is a
terror of criminals; a shield, because it
is a protection of the innocent against
unjust prosecution. No one can be
prosecuted for a felony except on an
indictment by a Grand Jury. With its
extensive powers, a Grand Jury must be
motivated by the highest sense of
justice, for otherwise it might find
indictments not supported by the
Petition for Certiorari

Page 22

evidence and thus become a source of
oppression to our citizens, or on the
other hand, it might dismiss charges
against those who should be prosecuted.
App. J.
For all of the stated reasons stated herein, the grand
jury indictment is fundamental to our scheme of
ordered liberty and system of justice under the
selective incorporation doctrine because of its
functions of protecting citizens against despotic
abuses of power by sovereigns and to report those
suspected of having committed criminal offenses.
Thus, the Fifth Amendment right to a grand
jury indictment or its functional equivalent should
apply to the states including, without limitation, the
Commonwealth of Virginia.

2.

Does a defective grand jury indictment in a
state court criminal case deprive the state
court of jurisdiction in such a case?

Petition for Certiorari

Page 23

Williams avers that the lack of an order of the
Circuit Court indicting him, the Circuit Court had no
jurisdiction over his case.
A void judgment, is a judgment not subject to
time limitation and can be challenged at any time.
See, e.g., Galpin v. Page, 85 U.S. (18 Wall.) 350, 366
(1873); Slaughter v. Commonwealth, 222 Va. 787,
793 (1981). A judgment entered by a court without
jurisdiction is void. Id. A void judgment may be
attacked collaterally or directly in any court at any
time. Id.
The Virginia legislature has placed statutory
requirements on grand jury procedures in addition to
the long-standing common law and constitutional
requirements. Among other provisions, it is required
that grand jury indictments list the name of the
witness relied upon by the grand jury. Va. Code §
19.2-202.

Petition for Certiorari

Page 24

It has also generally been long-standing law in
Virginia, until Hanson was incorrectly decided in
1948, that a failure to record a proper grand jury
indictment in a court’s order book deprived a court
trying a case of jurisdiction. Commonwealth v.

Cawood, 4 Va. 527, 541 (1826). In Cawood, the
Virginia Supreme Court held:
It is undoubtedly true, that before any
person can have judgment rendered
against him for a felony, they must be
regularly accused by the Grand Jury of
his country, and his guilt must be
established by the verdict of a jury. The
accusation in due and solemn form, is as
indispensable as the conviction. What,
then, is the solemnity required by Law
in making the accusation? The Bill
Indictment is sent or delivered to the
Grand Jury, who, after hearing all the
evidence adduced by the
Commonwealth, decide whether it be
true Bill, or not. If they find it so, the
foreman of the Grand Jury endorses on
it, ‘a true Bill,’ and signs his name as
foreman, and then the Bill is brought
into Court by the Whole Grand Jury,
and in open Court it is publicly
delivered to the Clerk, who records the
fact. It is necessary that it should be
Petition for Certiorari

Page 25

presented publicly by the Grand Jury;
that is the evidence required by Law to
prove that it is sanctioned by the
accusing body, and until it is so
presented by the Grand Jury, with the
endorsement aforesaid, the party
charged by it is not indicted, nor is he
required, or bound, to answer to any
charge against him, which is not so
presented.

Id., 4 Va. at 541-542.
Thus, in order for a judgment based upon an
indictment to be valid, an indictment must be proper,
and must be “delivered in court by the grand jury,
and its finding recorded.” Simmons v.

Commonwealth, 89 Va. 156, 157 (1892). Failure to
deliver the indictment in court and record the finding
is a “fatal defect”. Id.
These long-standing principles have been
embodied in both Virginia statutory law and the
Virginia Supreme Court Rules. For example,
Virginia Supreme Court Rule 3A:5(c) requires that a
Grand Jury return and presents their indictment
Petition for Certiorari

Page 26

findings in open court and that the indictment be
endorsed ‘A True Bill’ or ‘Not a True Bill’ and signed
by the foreman. Virginia statutes require the Clerk
of the Court to record the Grand Jury indictment
findings in the Order Book in compliance with Va.
Code §§ 17.1-123(A) and 17.1-124 and 17.1-240.
A court speaks only through its orders. In
those cases where the jurisdiction of the court
depends upon compliance with certain mandatory
provisions of law, the court’s order, spread upon its
order book, must show such compliance or
jurisdiction is not obtained. See, e.g., Simmons, 89
Va. at 159; Cawood, 4 Va. at 542.
The Simmons case is particularly pertinent
authority. In Simmons, the defendant was convicted
of first degree murder. Simmons, 89 Va. at 157.
Like Williams in this case, the defendant in

Simmons was convicted based upon a grand jury

Petition for Certiorari

Page 27

document, just as in Williams’ case, that had
allegedly been signed by a grand jury foreman, but
had not been recorded in any order book of the circuit
court. Id. The Lee County Virginia Circuit Court
had found the defendant in Simmons guilty and did
not grant him relief based upon a lack of any
recording of grand jury indictment. Id. However,
the Virginia Supreme Court reversed the conviction
and found that the failure to record the grand jury
indictment in an order book of the circuit court was a
fatal defect. Id.
Under Virginia law, although a prisoner has in
fact been arraigned on, and has pleaded to, an
indictment not appearing by the record to have been
found by the Grand Jury, and if a third actual term
has passed without such record of the findings, he is
entitled under Va. Code § 19.2-242 to be discharged
from the crime. Cawood, 4 Va. at 546; Adcock v.

Petition for Certiorari

Page 28

Commonwealth, 49 Va. (Gratt.) 661, 671 (1851).
In this case Williams should be forever
discharged of the crimes charged because three (3) or
more terms of the Circuit Court have passed without
a trial on valid indictments that were presented in
open court by the Grand Jury and recorded.
Federal Courts have generally fully complied
with the requirements of the Fifth Amendment
concerning grand jury indictments. As a result, this
Honorable Court does not appear to have previously
addressed a case in which no order was entered
indicting a defendant in a criminal matter. In a rare
occurrence of non-compliance, the Fourth Circuit
Court of Appeals found that a failure to properly
record a grand jury indictment was a fatal defect. In
its opinion, the Fourth Circuit Court of Appeals
stated concerning proper procedures for grand jury
indictments and their importance:

Petition for Certiorari

Page 29

1 Chitty on Crim. Law, 324, describes
the mode in which the grand jury
returns the results of their inquiries to
the court, by indorsing “A True Bill” if
found, and “Not a True Bill” if rejected;
and says:
“When the jury have made these
indorsements on the bills, they bring
them publicly into court, and the clerk
of the peace at sessions, or clerk of
assize on the circuit, calls all the
jurymen by name, who severally answer
to signify that they are present, and
then the clerk of the peace or assize
asks the jury whether they agreed upon
any bills, and bids them present them to
the court, and then the foreman of the
jury hands the indictments to the clerk
of peace or clerk of assize.”
4 Blackstone, 306, also describes the
functions of the grand jury and the
methods of its proceedings, the
necessity of 12 at least assenting to the
accusation, and adds:
“And the indictment when so found is
publicly delivered into court.”
A later text-writer (1 Bishop on Crim.
Procedure, § 869) says:
“When the grand jury has found its
indictments, it returns them into open
court, going personally in a body.”

Renigar v. United States, 172 F. 646, 648 (4th Cir.
1909). The importance of following proper

Petition for Certiorari

Page 30

constitutionally based processes was particularly
emphasized in Renigar:
Neither sound reason nor public policy
justifies any departure from settled
principles applicable in criminal
prosecutions for infamous crimes. Even
if there were a wide divergence among
the authorities upon this subject, safety
lies in adhering to established modes of
procedure devised for the security of life
and liberty, nor ought the courts in
their abhorrence of crime, nor because
of their anxiety to enforce the law
against criminals, to countenance the
careless manner in which the records of
cases involving the life or liberty of an
accused, are often prepared …
Illegitimate and unconstitutional
practices get their first footing in that
way, namely, by silent approaches and
slight deviations from legal modes of
procedure. This can only be obviated by
adhering to the rule that constitutional
provisions for the security of person and
property should be liberally construed.
A close and literal construction deprives
them of half their efficacy, and leads to
gradual depreciation of the right as if it
consisted more in sound than in
substance. It is the duty of all the courts
to be watchful for the constitutional
rights of the citizen, and against any
stealthy encroachments. Their motto
should be Obsta principiis.’”
Petition for Certiorari

Page 31

Renigar, 172 F. at 652, 655.
Williams recognizes that Renigar has been
criticized and claimed by lower courts to have been
abrogated. See, e.g., United States v. Lennick, 18
F.3d 814, 817 (9th Cir. 1994). However, Renigar has
not been deemed invalid law by a ruling of this
Honorable Court, which is the only court having
authority to do so. It is also the case that Lennick
specifically is distinguishable in that there was
actually an order entered in that case although it
was not properly entered in open court. Id. In
Williams’ case, no order of any form was ever
entered.
In the case at bar, Williams avers that his
constitutional rights were violated as to never being
indicted. No court order was ever entered indicting
Williams. The only documents found in the courts
file pertaining to a grand jury were forms allegedly
Petition for Certiorari

Page 32

signed by a grand jury foreman (Exhibit A). The
signature of the alleged foreman is illegible.
Similarly, the name of the only purported witness
against Williams was crossed out and unintelligible
scribbles scrawled on each of the alleged “bills”.
Moreover, there is nothing in the court’s records that
show that a clerk called each of the grand jurors by
name to signify that they were present or asked the
grand jury whether they agreed on any bills.
Most significantly, the records of the Circuit
Court show no record of any indictment against
Williams having been ordered and signed by a judge.
The failure of the Circuit Court to enter such an
order, that the Grand Jury had returned into open
court and presented true bill indictments against
Williams are fatal defects, which deprived the Circuit
Court of jurisdiction. Accordingly, the judgments
against Williams are void for want of jurisdiction of

Petition for Certiorari

Page 33

the Circuit Court. Cawood, 4 Va. at 541.
Accordingly, Williams requests that this
Honorable Court grant this Petition and rule that
the failure to indict Williams are fatal defects that
render his indictments nullities and his convictions
void for lack of jurisdiction.

VI.

Overall Conclusion

For all of the reasons stated herein, Williams’
Petition for Certiorari should be granted and his
convictions vacated.
Dated: June 4, 2019
by
/s/ Dale R. Jensen
Dale R. Jensen
Dale Jensen, PLC
606 Bull Run
Staunton, Virginia 24401
(434) 249-3874
djensen@jensenjustice.com
Attorney for Petitioner
Dwayne Lamar Williams, Sr.

Petition for Certiorari

Page 34

